Supreme Court Litigation Clinic
Crown Quadrangle
559 Nathan Abbott Way
Stanford, CA 94305-8610
Tel 650 724.1900
Fax 650 723.4426
sup.ct.clinic@law.stanford.edu

June 4, 2020
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Nathan Van Buren v. United States

Case No. 19-783

Dear Mr. Harris,
This letter confirms petitioner’s consent to the filing of any and all amicus
briefs at the merits stage.
Thank you very much for your time and assistance in this matter.
Very truly yours,

Jeffrey L. Fisher

Counsel for Petitioner

cc:

All Counsel

Community Law ♣ Criminal Defense ♣ Environmental Law ♣ Immigrants' Rights
International Human Rights and Conflict Resolution ♣ Juelsgaard Intellectual Property and Innovation
Organizations and Transactions ♣ Religious Liberty ♣ Supreme Court Litigation ♣ Youth and Education Law Project

